OIG Investigative Reports,  Newark, N.J., April 26, 2011 - Three Sentenced for Stealing, Laundering Over $500.000 from Ney Jersey University
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF NEW JERSEY
FOR IMMEDIATE RELEASE
April 26, 2011
www.justice.gov/usao/nj
CONTACT: Rebekah Carmichael
Office of Public Affairs
(973) 645-2888
THREE SENTENCED FOR STEALING, LAUNDERING OVER $500,000 FROM NEW JERSEY CITY UNIVERSITY
NEWARK, N.J. – Three co-conspirators were sentenced today for their roles in a scheme to steal more than $500,000 in federally subsidized funds from the New Jersey City University Student Government Organization, U.S. Attorney Paul J. Fishman announced.
Shaunette Moody, 48, the former office manager for the New Jersey City University (“NJCU”) Student Government Organization (“SGO”), and her husband Alexander Moody, 51, both of Jersey City, N.J., were sentenced to 18 months and 72 months in prison, respectively. A co-conspirator, Kimberly Jackson, 39, also of Jersey City, was sentenced to three years of probation. All three defendants previously pleaded guilty for their roles in the scheme before U.S. District Judge William J. Martini, who also imposed the sentences today in Newark federal court.
According to documents filed in this case and statements made in court:
Alexander Moody was the organizer of the criminal scheme to exploit Shaunette Moody’s position as the SGO office manager to steal funds from NJCU by cashing unauthorized checks drawn on the SGO bank account. From January 4, 2007, through July 21, 2010, the two stole approximately 275 checks that were then fraudulently signed and made payable to, among others, the Moodys and co-conspirators Arsenio Willey, Curtis Shearer and Kimberly Jackson. In order to conceal and perpetuate their crime, the Moodys falsified documents, transferred funds among SGO financial accounts, and obtained fraudulent audits of the SGO’s finances. Approximately $516,106 was stolen in the course of the scheme. The stolen money was used to purchase goods and services for the co-conspirators’ benefit, including entertainment and gambling in Atlantic City.
The Moodys were originally charged by Indictment on September 2, 2010, and pleaded guilty in December 2010. Alexander Moody pleaded guilty to an Information charging him with one count of money laundering conspiracy and one count of aiding and abetting theft from an organization receiving federal benefits. Shaunette Moody pleaded guilty to one count of money laundering conspiracy and one count of theft from an organization receiving federal benefits. Willey, Shearer, and Jackson were charged by Complaint with conspiracy to steal federally subsidized funds on September 7, 2010. Jackson pleaded guilty on February 3, 2011, to an Information charging her with conspiring to steal from an organization receiving federal benefits. Shearer pleaded guilty to the conspiracy charge on March 29, 2011, and is scheduled to be sentenced on July 12, 2011. The charges against Willey remain pending.
In addition to the prison term, Judge Martini sentenced Shaunette Moody to two years of supervised release and Alexander Moody to three years of supervised release, and ordered them to pay $516,106 in restitution. Jackson was ordered to pay $34,315 in restitution, the amount of loss directly attributable to her actions.
U.S. Attorney Fishman credited special agents of IRS – Criminal Investigation, under the direction of Special Agent in Charge Victor W. Lessoff, and special agents of the U.S. Department of Education, Office of Inspector General, under the direction of Special Agent in Charge Brian Hickey, for the investigation leading to today’s sentencings.
The government is represented by Assistant U.S. Attorney Randall H. Cook of the U.S. Attorney’s Office Criminal Division in Newark.
The charges and allegations in the Complaint against Willey are merely accusations, and the defendant is considered innocent unless and until proven guilty.
11-168
###
Defense counsel:
Alexander Moody: Christopher Patella, Esq., Bayonne, N.J.
Shaunette Moody: Alan D. Bowman, Esq., Newark
Kimberly Jackson: Robert Olejar, Esq., Randolph, N.J.
Top
Printable view
Last Modified: 06/03/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov